U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 6, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jason Laut v. United States of America
S.Ct. No. 19-1362

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 8, 2020,
and placed on the docket on June 11, 2020. The government’s response is due on July 13, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 12, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

19-1362
LAUT, JASON
USA

JOHN CHRISTOPHER KOREVEC
KIRKLAND & ELLIS LLP
555 SOUTH FLOWER STREET
SUITE 3700
LOS ANGELES, CA 90071
213-680-8343
JOHN.KOREVEC@KIRKLAND.COM

